            DEPARTMENT OF HEALTH AND HUMAN SERVICES                              Office of Inspector General
                                                                                  Office of Audit Services

                                                                                       REGION IV
                                      OCT     9 2008                        61 Forsyth Street, S.W., Suite 3T41
                                                                                 Atlanta, Georgia 30303



Report Number: A-04-08-04023

Mr. Bruce W. Hughes, President
Palmetto Government Benefits Administrators
2300 Springdale Drive, Building One
Mail Code: AG-A03
Camden, South Carolina 29020

Dear Mr. Hughes:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of
Inspector General (OIG) final report entitled "Audit of Palmetto Government Benefits
Administrators' Medicare Part B Final Administrative Cost Proposals for Fiscal Years
2004 Through 2006." We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters
reported. We request that you respond to this official within 30 days from the date of this
letter. Your response should present any comments or additional information that you
believe may have a bearing on the final determination.

Pursuant to the principles of the Freedom ofInformation Act, 5 U.S.C. § 552, as amended
by Public Law 104-231, OIG reports generally are made available to the public to the
extent the information is not subject to exemptions in the Act (45 CFR part 5).
Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me,
or contact Mark Wimple, Audit Manager, at (919) 790-2765, extension 24, or through e-
mail at Mark.Wimple@oig.hhs.gov. Please refer to report number A-04-08-04023 in all
correspondence.

                                             Sincerely,



                                             Peter J. Barbera
                                             Regional Inspector General
                                              for Audit Services

Enclosure
Page 2 - Bruce W. Hughes

Direct Reply to HHS Action Official:

Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




  AUDIT OF PALMETTO GOVERNMENT
    BENEFITS ADMINISTRATORS'
      MEDICARE PART B FINAL
  ADMINISTRATIVE COST PROPOSALS
         FOR FISCAL YEARS
        2004 THROUGH 2006




                      Daniel R. Levinson
                       Inspector General

                        October 2008
                        A-04-08-04023
                    Office ofInspector General
                                     http:// oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
Specifically, these evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness in departmental programs. To promote impact, the
reports also present practical recommendations for improving program operations.

Office ofInvestigations

The Office of Investigations (01) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of 01 lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG's internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops- and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
                           Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act established the Health Insurance for the Aged and
Disabled (Medicare) program, which provides for a hospital insurance program (Part A) and a
related supplementary medical insurance program (Part B). The Centers for Medicare &
Medicaid Services (CMS) administers the Medicare program through contracts with private
organizations that process and pay Medicare claims. The contracts provide for reimbursement of
allowable administrative costs incurred in processing Medicare claims.

During the audit period, which covered the period October 1, 2003, through September 30, 2006,
CMS contracted with Palmetto Government Benefits Administrators (Palmetto) to serve as a
Medicare contractor. Palmetto processed Part B claims for South Carolina, Ohio, and West
Virginia. Palmetto reported administrative costs totaling $150,232,712 in its Final
Administrative Cost Proposals (cost proposals) for fiscal years 2004 through 2006. (See
Appendix B.)

OBJECTIVE

Our objective was to determine whether the administrative costs that Palmetto reported on its
cost proposals were allowable, allocable, and reasonable in accordance with part 31 of the
Federal Acquisition Regulation (FAR) and the Medicare contract.

SUMMARY OF FINDINGS

Palmetto reported expenditures that substantially complied with the FAR and the Medicare
contract provisions. However, Palmetto reported in its cost proposals $31,687 that it was unable
to support with adequate documentation. These unallowable costs were for subcontracts
($31,553) and electronic data processing equipment ($134). Because Palmetto was unable to
provide accounting records to fully support the costs reported and was unable to provide
supporting documentation for certain individual costs claimed in the cost proposals, these costs
did not meet the criteria for Federal reimbursement.

RECOMMENDATIONS

We recommend that Palmetto:

   •   refund to the Federal Government $31,687 of unallowable costs and

   •   strengthen its policies and procedures for maintaining documentation to support that costs
       included on its cost proposals were incurred, allocable to the contract, and compliant with
       applicable cost principles.
PALMETTO COMMENTS

In its written comments to the draft report, Palmetto said that it had been notified by the Office
ofInspector General that the unallowable costs had been reduced to $31,687; however, Palmetto
believes that $31,553 ofthe $31,687 is allowable and can be supported. Palmetto said that it
would continue to search for proper documentation of these costs and, when located, submit it to
CMS. Palmetto agreed with our recommendation to strengthen its policies and procedures.

OFFICE OF INSPECTOR GENERAL RESPONSE

We continue to recommend that Palmetto refund $31,687 of unallowable costs pending
submission of adequate supporting documentation to CMS.




                                                 11
                                     TABLE OF CONTENTS

                                                                                            PAGE

INTRODUCTION                                                                                     1

    BACKGROUND..................................................                                 1

    OBJECTIVE, SCOPE AND METHODOLOGy..........................................................   1
         Objective                                                                               1
         Scope                                                                                   1
         Methodology........................................................                     2

FINDINGS AND RECOMMENDATION                                                                      2

    UNALLOWABLE COSTS                                                                            2

    RECOMMENDATIONS                                                                              3

    PALMETTO COMMENTS                                                                            3

    OFFICE OF INSPECTOR GENERAL RESPONSE                                                         3

APPENDIXES

    A-    SAMPLING METHODOLOGY

    B-    FINAL ADMINISTRATIVE COST PROPOSALS WITH OFFICE OF
          INSPECTOR GENERAL RECOMMENDED DISALLOWANCES AND
          ACCEPTANCES

    C-    OFFICE OF INSPECTOR GENERAL RECOMMENDED COST
          DISALLOWANCES

    D-    COMPARISON OF ADMINISTRATIVE COSTS CLAIMED TO BUDGET
          AUTHORIZATION

    E-     PALMETTO COMMENTS




                                                     111
                                      INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act established the Health Insurance for the Aged and
Disabled (Medicare) program, which provides for a hospital insurance program (Part A) and a
related supplementary medical insurance program (Part B). The Centers for Medicare &
Medicaid Services (CMS) administers the Medicare program through contracts with private
organizations that process and pay Medicare claims.

The contracts with CMS provide for the reimbursement of allowable administrative costs
incurred in processing Medicare claims. After the close of each fiscal year (FY), contractors
submit a Final Administrative Cost Proposal (cost proposal) reporting Medicare costs. Once
CMS accepts a cost proposal, the contractor and CMS negotiate a final settlement of allowable
administrative costs.

During our audit period (FYs 2004 through 2006), CMS contracted with Palmetto Government
Benefits Administrators (Palmetto) to serve as a Medicare contractor. Palmetto processed Part B
claims for South Carolina, Ohio, and West Virginia.

The contract between Palmetto and CMS set forth principles of reimbursement for administrative
costs. The contract cited the Federal Acquisition Regulation (FAR), 48 CFR chapter 1, as
regulatory principles to be followed for application to the Medicare contract and provided
additional guidelines for specific cost areas.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the administrative costs that Palmetto reported on its cost
proposals were allowable, allocable and reasonable in accordance with part 31 of the FAR and
the Medicare contract.

Scope

Our audit covered the period October 1, 2003, through September 30,2006 (FYs 2004 through
2006). For this period, Palmetto reported administrative costs to CMS totaling $150,232,712.
This total included pension costs of $4,244,764 that we excluded from this review because
pension costs will be the subject of a separate audit.

In planning and performing our audit, we reviewed Palmetto's internal controls for allocating
costs to cost objectives in accordance with the FAR and the Medicare contract. We conducted
this analysis to accomplish our objective and not to provide assurance on the internal control
structure.

We conducted fieldwork at Palmetto's office in Columbia, South Carolina, from April 2007
through December 2007.




                                                1
Methodology

To accomplish our objective, we:

   •   reviewed applicable Medicare laws, regulations, and guidelines, including the FAR
       section 31.201-2(d), the Medicare Financial Management Manual, chapter 2, section
       190.3 and Palmetto's contract with eMS;

   •   reconciled the cost proposals from FYs 2004 through 2006 to Palmetto's accounting
       records;

   •   performed analytical tests of Palmetto's trial balances;

   •   selected and reviewed a judgmental sample of invoices, expense vouchers and reports,
       and journal entries;

   •   interviewed Palmetto officials about their cost accumulation processes for cost proposals
       and gained an understanding of their cost allocation systems;

   •   reviewed payroll journals, corporate bonus plans, and personnel records;

   •   selected a stratified random sample of 105 individual employee pay periods and verified
       that the amount paid was in accordance with the employee's pay rate, the salary was
       charged to the correct cost center, and the number of hours paid agreed with the time
       sheets (Sampling Methodology Appendix A); and

   •   tested costs for allowability, allocability, and reasonableness.

We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Palmetto reported expenditures that substantially complied with the FAR and the Medicare
contract provisions. However, Palmetto reported in its cost proposals $31,687 that it was unable
to support with adequate documentation. These unallowable costs were for subcontracts
($31,553) and electronic data processing equipment ($134). Because Palmetto was unable to
provide accounting records to fully support the costs reported and was unable to provide
supporting documentation for certain individual costs claimed in the cost proposals, these costs
did not meet the criteria for Federal reimbursement.

UNALLOWABLE COSTS

Pursuant to FAR section 31.201-2(d), Palmetto is responsible for "... maintaining records,
including supporting documentation, adequate to demonstrate that costs claimed have been


                                                  2
incurred, are allocable to the contract, and comply with applicable cost principles ...."
Likewise, chapter 2 section 190.3 of the Medicare Financial Management Manual states that the
contractor must maintain records "... in such detail as will properly reflect all net costs, direct
and indirect ... for which reimbursement is claimed under the provisions ofthe agreement."

Palmetto was unable to provide adequate supporting documentation for expenditures totaling
$31,687 that it claimed in its cost proposals. The unsupported expenditures were included in the
following cost categories:

   •    $31,553 for subcontracts in FY 2005 and

   •    $134 for electronic data processing equipment in FY 2004.

Palmetto did not provide invoices, contracts, journal entries, expense vouchers, or other such
documentation to support these expenses. Because Palmetto was unable to provide adequate
supporting documentation for these costs totaling $31,687, the costs were unallowable for
Federal reimbursement.

Throughout our audit, Palmetto experienced difficulty and significant delays in obtaining
evidence to support the expenses in its cost proposals. We believe that Palmetto could have
minimized both its efforts and our audit delays by maintaining proper documentation to
adequately support the costs claimed on the cost proposals.

RECOMMENDATIONS

We recommend that Palmetto:

    •   refund to the Federal Government $31,687 of unallowable costs and

    •   strengthen its policies and procedures for maintaining documentation to support that costs
        included on its cost proposals were incurred, allocable to the contract, and compliant with
        applicable cost principles.

PALMETTO COMMENTS

In its written comments to the draft report, Palmetto said that it had been notified by the Office of
Inspector General that the unallowable costs had been reduced to $31,687; however, Palmetto
believes that $31,553 of the $31,687 is allowable and can be supported. Palmetto said that it
would continue to search for proper documentation of these costs and, when located, submit it to
CMS. Palmetto agreed with our recommendation to strengthen its policies and procedures.

OFFICE OF INSPECTOR GENERAL RESPONSE

We continue to recommend that Palmetto refund $31,687 of unallowable costs pending
submission of adequate supporting documentation to CMS.




                                                  3
APPENDIXES
                                                                                                 APPENDIX A

                                       SAMPLING METHODOLOGY

OBJECTIVE

Our objective was to determine whether the salary costs that Palmetto reported on its cost
proposals were allowable, allocable, and reasonable in accordance with part 31 of the Federal
Acquisition Regulation and the Medicare contract.

POPULATION

The population consisted of 48,056 employee pay periods related to $78,213,917 Medicare Part
B salaries and wages that were charged to Medicare from October 1, 2003 through September 30,
2006.

SAMPLE UNIT

The sample unit was an "employee pay period."l

SAMPLE DESIGN

We used a stratified random sample of employee pay periods for fiscal years (FY) 2004, 2005,
and 2006. Each FY represented a separate stratum.

SAMPLE SIZE

We selected a sample of 105 employee pay periods that included 35 each from FYs 2004, 2005,
and 2006.




IAn "employee pay period" consists of one employee's salaries, wages, and related fringe benefits for one pay
period.
                                                                                      APPENDIXB

                                   FINAL ADMINISTRATIVE COST PROPOSALS
          WITH OFFICE OF INSPECTOR GENERAL RECOMMENDED COST DISALLOWANCES AND ACCEPTANCES
                                    For Fiscal Years (FY) 2004, 2005, and 2006

             Cost Category            FY2004           FY2005           FY2006           Total

Salaries & Wages                 $    33,214,414     $ 30,675,893     $ 26,256,079    $ 90,146,386

Fringe Benefits                        9,009,887        9,375,172        8,171,353      26,556,412

Facilities or Occupancy                3,307,049        4,091,413        3,334,891      10,733,353

EDP Equipment                          4,551,168        5,460,500        1,553,580      11,565,248

Su bcontracts                          5,231,272        5,398,924        3,958,497      14,588,693

Outside Professional Services             49,260           58,429           17,296         124,985

Telephone & Telegraph                    875,847          783,221          474,737       2,133,805

Postage & Express                      6,619,421        5,013,158        6,955,033      18,587,612

Furniture & Equipment                    621,558          743,261          296,451       1,661,270

Materials & Supplies                   1,466,751        3,469,869          961,386       5,898,006

Travel                                   454,541          453,163          387,583       1,295,287

Return on Investment                     122,279           18,891           56,569         197,739

Miscellaneous                            707,103        1,583,457        4,220,397       6,510,957

Other                                           0               0                0               0

Credits                               (13,262,093)    (14,469,301 )    (13,774,556)    (41,505,950)

Forward Funding                                 0          25,428        1,713,481       1,738,909

  Total Costs Claimed on FACP     $   52,968,457     $ 52,681,478     $ 44,582,777    $150,232,712
OIG Recommended Disallowance*               (134)         (31,553)                0        (31,687)
OIG Recommended for Acceptance    $   52,968,323     $ 52,649,925     $ 44,582,777    $150,201,025



* See Appendix C
                                                                       APPENDIXC


            OFFICE OF INSPECTOR GENERAL RECOMMENDED COST DISALLOWANCES
                             For Fiscal Years (FY) 2004 and 2005

                                                                       Total Part B
             Finding Categories         FY 2004         FY 2005       Disallowances

  Unallowable Costs
Subcontracts                                       o        31,553           31,553
Electronic Data Processing Equipment              134             o             134

  Total OIG Recommended Disallowances        $134          $31,553          $31,687
                                                                                           APPENDIXD
                                                                                            Page 1 of 3


                                        Palmetto GBA
                              Final Administrative Cost Proposal Part B
            Fiscal Year 2004 Comparison of Administrative Costs Claimed to Budget Authorization


                                                                                           Variance
                                               Budget             Administrative           Favorable
            Operation                       Authorization         Costs Claimed          (Unfavorable)
Program Management
Bills/Claims Payment                    $       36,500,800    $        37,207,857    $         (707,057)
Appeals                                          3,804,200              3,821,060               (16,860)
Beneficiary Inquiries                            3,725,700              3,521,825               203,875
PM Provider Communication                          262,300                246,484                15,816
Participating Physicians                           165,800                158,765                 7,035
Productivity Investments                           573,400                516,744                56,656
Provider Enrollment                              4,202,500              3,972,037               230,463
Provider Telephone Inquiries                     5,155,900              4,967,918               187,982
Credits                                        (13,022,200)           (13,247,270)              225,070
    Subtotal Program Management                 41,368,400             41,165,420               202,980

Medicare Integrity Program
Medical Review                                   5,316,400              5,163,164               153,236
Medicare Secondary Payer Pre-Payment               689,600                661,336                28,264
Benefit Integrity                                  120,000                121,031                 (1,031)
Local Provider Education & Training              1,230,400              1,120,759               109,641
Provider Communications                          1,083,700              1,021,466                62,234
Medicare Secondary Payer Post-Payment            3,595,600              3,715,281              (119,681)
  Subtotal Medicare Integrity Program           12,035,700             11,803,037               232,663


  Totals                                $       53,404,100    $        52,968,457    $         435,643


Note: All amounts were taken from Final Administrative Cost Proposal (Supplement No.4)
and Notification of Budget Approval (Supplement No. 18).
                                                                                          APPENDIX 0
                                                                                           Page 2 of 3


                                         Palmetto GBA
                               Final Administrative Cost Proposal Part B
             Fiscal Year 2005 Comparison of Administrative Costs Claimed to Budget Authorization


                                                                                           Variance
                                            Budget               Administrative           Favorable
            Operation                    Authorization           Costs Claimed          (U nfavorable)
Program Management
Bills/Claims Payment                     $    38,746,500     $        37,799,612    $          946,888
Appeals                                        4,322,800               4,276,079                46,721
Beneficiary Inquiries                          3,500,200               3,353,602               146,598
PM Provider Communication                        218,700                 223,755                 (5,055)
Participating Physicians                         215,900                 188,570                27,330
Productivity Investments                         136,600                  96,008                40,592
Provider Enrollment                            4,106,200               3,984,514               121,686
Provider Telephone Inquiries                   6,112,100               5,859,817               252,283
Credits                                      (14,047,800)            (14,460,411)              412,611
    Subtotal Program Management               43,311,200              41,321,546             1,989,654

Medicare Integrity Program
Medical Review                                4,297,300                4,182,277                115,023
Medicare Secondary Payer Pre-Payment            485,800                  469,447                 16,353
Benefit Integrity                                94,000                   89,076                  4,924
Local Provider Education & Training           1,041,400                1,026,657                 14,743
Provider Communications                         979,200                  942,905                 36,295
Medicare Secondary Payer Post-Payment         3,422,400                3,208,683                213,717
MMA Regulatory Reform                                                    554,279               (554,279)
HIGLAS Transition                                                        886,608               (886,608)
   Subtotal Medicare Integrity Program       10,320,100               11,359,932             (1,039,832)


  Totals                                 $   53,631,300      $        52,681,478    $          949,822


Note: All amounts were taken from Final Administrative Cost Proposal (Supplement No.4)
and Notification of Budget Approval (Supplement No. 12).
                                                                                          APPENDIX 0
                                                                                           Page 3 of 3


                                         Palmetto GBA
                               Final Administrative Cost Proposal Part B
             Fiscal Year 2006 Comparison of Administrative Costs Claimed to Budget Authorization


                                                                                          Variance
                                            Budget               Administrative           Favorable
            Operation                    Authorization           Costs Claimed          (Unfavorable)
Program Management
Bills/Claims Payment                     $    32,385,200     $        31,780,247    $          604,953
Appeals                                        4,612,200               4,776,478              (164,278)
Beneficiary Inquiries                          2,165,000               2,139,835                25,165
PM Provider Communication                        300,600                 402,591              (101,991)
Participating Physicians                          82,600                  82,666                   (66)
Productivity Investments                          54,000                  15,883                38,117
Provider Enrollment                            3,847,600               3,925,369               (77,769)
Provider Telephone Inquiries                   3,961,200               3,741,576               219,624
Credits                                      (13,797,200)            (13,767,472)              (29,728)
    Subtotal Program Management               33,611,200              33,097,173               514,027

Medicare Integrity Program
Medical Review                                4,303,400                4,201,209               102,191
Medicare Secondary Payer Pre-Payment            482,500                  468,442                14,058
Benefit Integrity                                34,100                   30,726                 3,374
Local Provider Education & Training             795,900                  769,192                26,708
Provider Communications                         754,500                  741,555                12,945
Productivity Investments                              0                   58,509               (58,509)
Medicare Secondary Payer Post-Payment         2,876,300                2,715,971               160,329
HIGLAS Transition                                                      2,500,000            (2,500,000)
   Subtotal Medicare Integrity Program        9,246,700               11,485,604            (2,238,904)


  Totals                                 $   42,857,900      $        44,582,777    $       (1,724,877)


Note: All amounts were taken from Final Administrative Cost Proposal (Supplement No. 0)
and Notification of Budget Approval (Supplement No. 21).
                                                                                                  APPENDIXE
                                                                                                    Page 1 of2




            Palmetto GBA~                                                                                 Bruce W. Hughes __
                                                                                           President and Chief Operating Officer
                 PARTNERS IN EXCELLENCEw


                                                        Office of Inspector General Note: Portions of this
                                                        response are no longer applicable because we
August 8, 2008
                                                        reduced the unreconcilable and unallowable costs
Mr. Peter J. Barbera                                    based on additional documentation submitted by the
Regional Inspector General for Audit Services           auditee.
Region IV
60 Forsyth Street, S.W., Suite 3T41
Atlanta, Georgia 30303

RE: Audit Report Number A-04-07-04023

Dear Mr. Barbera:

We are responding to your draft audit report dated June 25, 2008 entitled "Audit of Palmetto
Government Benefits Administrators' Medicare Part B Final Administrative Cost Proposals for Fiscal
Years 2004 Through 2006." Thank you for the additional time to submit our response.

The draft report contained the following recommendations. Our responses to the recommendations are
provided below.


We recommend that Palmetto:
   • Refund to the Federal Government $492,677 reported in its cost proposals that did not reconcile
      to its general ledger;
   • Refund to the Federal Government $480,612 of unallowable costs; and
   • Strengthen its policies and procedures for maintaining documentation to support that costs
      included on its cost proposals were incurred, allocable to the contract, and compliant with
      applicable cost principles.


Contractor Response:
   • Since the date of the draft audit report, we have received updated information from the OIG
       auditors that the unreconciled amount of $492,677 has been reconciled and this recommended
       adjustment has been eliminated. We agree with this revised recommendation.
   • Since the date of the draft audit report, we have received updated information from the 010
       auditors indicating that the unallowable costs have been reduced to $31,687. Palmetto GBA
       believes that $31,553 of the unallowed amount, which represents a. single journal entry, is
       allowable and can be supported. We will continue to search for the proper documentation of
       these costs and, when located, provide the documentation to eMS.
   • Palmetto agrees with the recommendation to strengthen our policies and procedures for
       maintaining documentation to support that costs included on our cost proposals were incurred,
       allocable to the contract, and compliant with applicable cost principles. On October 1, 2007, we
       implemented a new accounting system that standardizes and automates processed that were
       manual functions. We have also updated work instructions for the new system and will take any
       other steps deemed necessary to implement this recommendation.

                                  www.palmettogba.comIPost Office Box 100134
                                       ISO 9001:2000 COlumbia, South Carolina 29202-3134
                                                                                                       APPENDIXE
                                                                                                         Page 2 of2




Mr. Peter J. Barbera
August 8, 2008
Page 2



    If you have any questions, please feel free to contact me at 803-763-7130.

                                                              Sincerely                            D
                                                   ~~V-.~~
    cc:    William R Horton, BCBSSC
           Joe Wright, Palmetto GBA
           Mark Wimple, OIG




                                        www.palmettogba.comIPost Office Box 100134
                                              ISO 9001 :2000 Columbia, South Carolina 29202·3134
